•-*

y

/

7

APPENDIX - A
(CAFC Case Numbers 20-1061, 20-1301)

A
Case: 20-1061

Document: 58

Page: 1

Filed: 09/08/2020

Note: This disposition is nonprecedential.

©ntteb States Court of Appeals:
for tfje Jfe&eral Circuit
ANGADBIR SINGH SALWAN,
Plaintiff-Appellant
v.
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Defendant-Appellee
2020-1061
Appeal from the United States District Court for the
Eastern District of Virginia in No. l:18-cv-01543-LMBTCB, Judge Leonie M. Brinkema.

ANGADBIR SINGH SALWAN,
Plaintiff-Appellant
v.
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES

Case: 20-1061

Document: 58

Page: 2

2

Filed: 09/08/2020

SALWAN v. IANCU

PATENT AND TRADEMARK OFFICE,
Defendant-Appellee
2020-1301
Appeal from the United States District Court for the
Eastern District of Virginia in No. l:18-cv-01543-LMBTCB, Judge Leonie M. Brinkema.
Decided: September 8, 2020
ANGADBIR Singh SALWAN, Bethesda, MD, pro se.
Mai-Trang Due DANG, Office of the Solicitor, United
States Patent and Trademark Office, Alexandria, VA, for
defendant-appellee.
Also represented by KAKOL1
Caprihan, Thomas W. Krause; Kimere Jane Kimball, Of­
fice of the United States Attorney for the Eastern District
of Virginia, United States Department of Justice, Alexan­
dria, VA. Also represented by FARHEENA YASMEEN
RaSHEED, Office of the Solicitor, United States Patent and
Trademark Office, Alexandria, VA, in 2020-1061.
Before O’MALLEY, REYNA, and CHEN, Circuit Judges.

Per Curiam.
Angadbir Singh Salwan (“Salwan”) appeals the United
States District Court for the Eastern District of Virginia’s
grant of summary judgment in an action brought under 35
U.S.C. § 145. Salwan v. Iancu, No. 1:18-CV-1543, 2019 WL
4144308 (E.D. Va. Aug. 30, 2019). For the foregoing rea­
sons, we affirm the district court’s decision.

0
Case: 20-1061

Document: 58

Page: 3

Filed: 09/08/2020

3

SALWAN v. IANCU

Background
Salwan is listed as the inventor on U.S. Patent Appli­
cation No. 15/188,000 (“the’000 application”). The’000 ap­
plication, titled “Physician to Patient Network System for
Real-Time Electronic Communications & Transfer of Pa­
tient Health Information,” discloses “a private [and] secure
infrastructure for independently practicing physicians and
patients for real-time electronic communication [and]
transfer of patient health information.” J.A. 276. The ap­
plication contemplates exchange of patient health infor­
mation, including electronic medical records data (“EMR”)
data and billing data, between physicians, patients, and
healthcare product manufacturers. Claim 1 is representa­
tive:
1. An EMR computing system for exchanging pa­
tient health information among healthcare user
groups or the healthcare user group and patients
over a network, the system comprising:
a central computer program embodied in a com­
puter readable medium or embodied in a central
server and a central database storing patient EMR
data for access by authorized users, the central
computer program configured to:
communicate through at least one com­
puter program, which includes EMR and
billing software, with at least one private
database for a healthcare user group, the
database comprising at least patient EMR
and billing data, and accounting data con­
fidential for the healthcare user group;
receive from the at least one private data­
base EMR data including at least one of
health problems, medications, diagnosis,
prescriptions, notes written by a
healthcare service provider, diagnostic test

Case: 20-1061

4

Document: 58

Page: 4

Filed: 09/08/2020

SALWAN v. IANCU

results or patient accounts data for storing
in the central database, wherein the
healthcare user group’s confidential ac­
counts data including one or more insur­
ance companies accounts data, is not
received;
selectively retrieve the stored EMR data,
generate one or more healthcare reports in­
cluding one or more of health problem list,
medication list, diagnoses report, prescrip­
tion, diagnostic test result report, patient
billing report; and
transmit one or more healthcare reports to
an authorized healthcare user group or the
authorized patient for reviewing.
J.A. 296.
The ’000 application claims priority to Salwan’s U.S.
Patent Application No. 12/587,101 (“the *101 application”),
which similarly disclosed and claimed methods of transfer­
ring patient health information in a physician-to-patient
network, similarly accessible by “physicians, patients,
healthcare product suppliers, and related government
agencies.” In re Salwan, 681 F. App’x 938, 939 (Fed. Cir.
2017) (“Salwan F). During prosecution, the examiner re­
jected the claims of the ’101 application as directed to pa­
tent ineligible subject matter. The Patent Trial and Appeal
Board (“the Board”) affirmed the rejection and we affirmed
the Board’s decision. Id. at 941.
As to the prosecution of the ’000 application at issue in
this case, the examiner likewise rejected the pending
claims as directed to patent-ineligible subject matter. The
Board affirmed the examiner’s rejections and denied Salwan’s request for rehearing. Rather than appeal directly
to this court, Salwan filed this action against the United
States Patent and Trademark Office (“USPTO”) in the

Case: 20-1061

Document: 58

Page: 5

Filed: 09/08/2020

5

SALWAN v. IANCU

Eastern District of Virginia, pursuant to 35 U.S.C. § 145.
The parties agreed to proceed on the administrative record
and filed cross-motions for summary judgment. The dis­
trict court granted the USPTO’s motion and denied Salwan’s motion, determining that the Board had properly
concluded that the claims of the ’000 application were di­
rected to patent ineligible subject matter. In reaching this
conclusion, the court noted that the claims at issue in this
case “relateQ to underlying subject matter nearly identical
to” that in the ’101 application, and that “[t]he conclusions
in Salwan I with respect to the ’101 Application apply with
equal force here.” Salwan, 2019 WL 4144308, at *5.
Salwan moved to amend the district court’s judgment
under Federal Rule of Civil Procedure 59. While this mo­
tion was pending, Salwan filed another motion, this time
seeking recusal of the district court judge and requesting
reassignment to a new judge based on alleged false state­
ments in the court’s opinion. J.A. 528-29. The court de­
nied Salwan’s recusal motion and Salwan filed a notice of
appeal (Case No. 20-1061). Subsequently, the district court
denied Salwan’s Rule 59 motion and Salwan filed another
notice of appeal challenging the court’s summary judgment
decision, and alleging, once again, that the district court
judge, Judge Brinkerma, was biased against him (Case No.
20-1031). We have jurisdiction pursuant to 28 U.S.C. §
1295(a)(4)(C). Given the overlap between the two appeals,
we address them together.
Discussion
In reviewing the grant of a motion for summary judg­
ment we apply the law of the regional circuit in which the
district court sits. AbbVie Deutschland GmbH & Co., KG
v. Janssen Biotech, Inc., 759 F.3d 1285, 1295 (Fed. Cir.
2014). The Fourth Circuit reviews the grant of a summary
judgment motion de novo, “applying the same standard
that the district court was required to apply.” Calloway v.
Lokey, 948 F.3d 194, 201 (4th Cir. 2020). In a Section 145

Case: 20-1061

Document: 58

6

Page: 6

Filed: 09/08/2020

SALWAN v. IANCU

action where, as here, the parties agree to proceed on the
administrative record, the district court reviews the
Board’s decision under applicable Administrative Proce­
dures Act (“APA”) standards. Hyatt v. Kappos, 625 F.3d
1320, 1336 (Fed. Cir. 2010), affd and remanded, 566 U.S.
431 (2012). Under the APA, the Board’s legal conclusions
are reviewed de novo and its factual findings are reviewed
for substantial evidence. HTC Corp. v. Cellular Commc’ns
Equip., LLC, 877 F.3d 1361, 1367 (Fed. Cir. 2017).
Salwan challenges the district court’s conclusions re­
garding patent-eligibility of his rejected claims and the
court’s denial of his recusal motion under 28 U.S.C. 455(a).
We address each in turn.
A.
Absent a “genuine issue of material fact regarding
whether the claim element or claimed combination is wellunderstood, routine, conventional to a skilled artisan in the
relevant field,” whether a claim recites patent eligible sub­
ject matter “can be decided on summary judgment as a
matter of law.” Berkheimer v. HP Inc., 881 F.3d 1360, 1368
(Fed. Cir. 2018).
We agree with the USPTO that our review of the dis­
trict court’s decision on the patent eligibility of Salwan’s
claims must parallel our decision in Salwan I. In Salwan
7, applying the Alice two-step framework, we concluded
that Salwan’s application was directed to “a method of or­
ganizing human activity with respect to medical infor­
Salwan I, 681 F. App’x at 941 (internal
mation.”
quotations omitted). Under Alice Step One, we concluded
that the claims at issue were directed to “the abstract idea
of billing insurance companies and organizing patient
health information.” Id. at 940. And, under Alice Step
Two, we determined that the inclusion of terms like a ge­
neric “network,” "computer program,” and “central server,”
are insufficient to transform an abstract idea into a patenteligible invention. Id. at 941.

Case: 20-1061

Document: 58

Page: 7

Filed: 09/08/2020

7

SALWAN v. IANCU

Comparing the claims of the ’101 application at issue
in Salwan I, and the claims of the ’000 application at issue
here, reveals that both sets of claims are directed to com­
munication of patient health information over a physicianpatient network and both sets of claims require receipt and
storage of patient health information data. The claims at
issue in both applications read on organizing human activ­
ity with respect to medical information, i.e., abstract pro­
cesses that can be performed by an individual.
Any additional claim limitations, moreover, do not
transform the abstract idea into patent-eligible subject
matter. Salwan 1 is again instructive. The claims in the
’000 application recite additional method steps identical to
the ones in the ’101 application. In Salwan /, we stated,
“[gjiven that the claims are directed to well-known busi­
ness practices, the claimed elements of a generic ‘network,’
‘computer program,’ ‘central server,’ ‘device,’ and ‘server for
processing and transferring’ are simply not enough to
transform the abstract idea into a patent-eligible inven­
tion.” Id. (citing Alice Corp. Pty. v. CLSBank Int’l, 573 U.S.
208, 223 (2014)). Here, too, Salwan’s claims merely recite
well-known process related to organizing patient health,
insurance, and billing information, and add the require­
ment of implementing them on a computer. Thus, like in
Salwan I, we conclude that the recited method steps do not
transform the abstract idea into patent-eligible subject
matter.
Accordingly, we affirm the district court on this point.
B.
Under 28 U.S.C. § 455(a), “[a]ny justice, judge, or mag­
istrate of the United States shall disqualify himself in any
proceeding in which his impartiality might reasonably be
questioned.” The Fourth Circuit reviews a district judge’s
refusal to recuse for abuse of discretion. United States v.
DeTemple, 162 F.3d 279, 283 (4th Cir. 1998). As the Su­
preme Court has explained, “judicial rulings alone almost

Case; 20-1061

Document: 58

Page: 8

8

Filed: 09/08/2020

SALWAN v. IANCU

never constitute a valid basis for a bias or partiality mo­
tion.” Liteky v. United States, 510 U.S. 540, 555 (1994).
On appeal, Salwan contends the district court judge
made six materially false statements in deciding the sum­
mary judgment motion against him, which warrant her
recusal.1 Absent a “display [of] deep-seated favoritism or
antagonism . . . mak[ing] . . . fair judgment impossible,”
however, a judge’s opinions based on the record do not con­
stitute a basis for a motion under 28 U.S.C. § 455. Liteky,
510 U.S. at 555. While Salwan may disagree with the
judge’s characterizations of the record and conclusions
based thereon, that does not turn the judge’s findings into
antagonistic “false statements.” Our agreement with the
district court’s rulings firmly underscores this conclusion.
We find no abuse of discretion in the denial of Salwan’s mo­
tion for recusal.
Conclusion
For the foregoing reasons, the district court’s opinion is
affirmed.
AFFIRMED
Costs
The parties shall bear their own costs.

i

We note that Salwan has a history of accusing ju­
dicial officers and court personnel of bias against him upon
entry of a dissatisfying decision, most recently, in this very
case upon denial of his motion for an oral hearing. See ECF
No. 27; see also Order, Salwan v. Iancu, No. 20-1301 (Fed.
Cir. July 27, 2020).

APPENDIX - B
(EDVA Civil Case Number l:18-cv-1543)

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 1 of 15 PagelD# 1118

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
ANGADBIR SINGH SALWAN,

)
)
)
)
)
)

Plaintiff,
v.
ANDREI IANCU, Under Secretary of Commerce
for Intellectual Property and Director of the
United States Patent and Trademark Office,
Defendant.

l:18-cv-1543 (LMB/TCB)

)
)
)
)
)

MEMORANDUM OPINION
In this civil action brought pursuant to 35 U.S.C. § 145, plaintiff, pro se. Angadbir Singh
Saiwan (“Salwan”) seeks a judgment that he is entitled to a patent covering the claims in United
States Patent Application 15/188,000 (“the ’000 Application”), which the United States Patent
and Trademark Office (“USPTO”) rejected as patent-ineligible and obvious under 35 U.S.C. § §
101 and 103. Before the Court are the parties’ cross-motions for summary judgment. Finding that
oral argument would not assist the decisional process, the Court has resolved these motions on
the submitted materials. For the reasons that follow, defendant’s Motion for Summary Judgment
[Dkt. No. 14] will be granted, and plaintiffs Motion for Summary Judgment [Dkt. No. 12] will
be denied.
I. BACKGROUND
Plaintiff Saiwan is an electronic engineer and inventor. A385.1 His claimed invention is
called the “Physician to Patient Network System” (“P2P”). A10, A25. According to the patent
application, P2P “relates, generally, to the field of applying Information Technology for the

i

References in the form “A__ ” are to the administrative record [Dkt. No. 10].

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 2 of 15 PagelD# 1119

benefit of [the] healthcare... industry.” A12. The P2P system is a “private [and] secure network
system for independently practicing physicians and patients” and its purported functions include
facilitating “real-time electronic communication [and] transfer of patient health information.”2
A25.
Applications for patents follow a multi-stage review process. First, an application is
assigned to a patent examiner, who reviews the application’s claims to determine patentability.
See 35 U.S.C. § 131. if the examiner finds that the claims are not patentable, the applicant may
seek reconsideration. Cf. id.. § 132. If, after reexamination, the claims are still rejected, the
applicant may file an appeal of that decision with the Patent Trial and Appeal Board (“PTAB”).
See id. § 134(a). While a patent application is pending, applicants have the option to file a
“continuation application,” which enables them to “claim the benefit of one or more prior-filed”
applications. 37 C.F.R. § 1.78. The “disclosure presented in the continuation must not include
any subject matter which would constitute new matter if submitted as an amendment to the
parent application.” Manual of Pat. Examining Proc. § 201.07.
Salwan has filed a series of patent applications related to the ’000 Application.3 The one
most relevant to this civil action was Application 12/587,101 (“the ’101 Application”), filed in
2009 and which relates to underlying subject matter nearly identical to that in the ’000
Application at issue here. In January 2015, after the standard two-step internal review process,
the patent examiner rejected the ’ 101 Application, finding, inter alia, that the application covered

2 The complete ’000 Application, which includes discussion of additional claimed functions, may
be found in the administrative record at A1-A75.
3 Salwan asserts that he filed his first application in this series in June 2005 (Application
60/687,904), and his second application in June 2006 (Application 11/447,627). A10. The record
does not reflect that either of these two applications were granted and the Court assumes from
this lack of evidence that they were not.
2

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 3 of 15 PagelD# 1120

patent-ineligible subject matter under 35 U.S.C. § 101 and was obvious under 35 U.S.C. §
103(a). InreSalwam 681 Fed. App’x 938,940 (2017) (“Salwan Y\ The PTAB affirmed that
rejection, which Salwan appealed to the United States Court of Appeals for the Federal Circuit.
After a de novo review, the Federal Circuit affirmed in a per curiam opinion, holding that
Salwan’s claims were “directed to patent-ineligible subject matter.” Id. Because this
determination disposed of Salwan’s application, the Federal Circuit did not reach the merits of
the PTAB’s rejections under § § 103 and 112.
On June 21,2016, after appealing the PTAB’s rejection of the ’101 Application to the
Federal Circuit, Salwan filed the ’000 Application, which he characterized as a continuation of
the ’101 Application. A10-11. The ’000 application states that it “contains subject matter
disclosed in the” ’101 Application and that “[n]o new subject matter has been added in the
current application,” All, and Salwan admits that he “did not make any changes in the
specification or the drawings” since his initial application. A381. The ’000 Application includes
20 claims. A52-59. Claims 1,10, and 204 are independent, while claims 2 through 9 depend on
Claim 1, and Claims 11 through 19 depend on Claim 10. A274-281. Claim 1 of the ’101
Application is similar to Claim 1 of the ’000 Application.5 The parties agree that Claim 1 in both

4 Claim 20 does not appear to have an exact corollary in the ’101 Application, and it is slightly
different from Claims 1-19 in that it does not involve a central database. The Court finds that the
differences apparent in Claim 20 are insufficient to render the claim patent eligible.
5 Claim 1 of the ’101 Application states:
A method for transferring patient health information among healthcare user groups or
patients via a network, the method comprising: providing at least one central data storage
configured to receive and store patient health data from one or more private data storages
of healthcare user groups, at least one central computer program embodied in at least one
computer readable medium or embodied in at least one central server for processing and
transferring patient health information stored in the one or more central data storages, and
at least one device for providing user authorization to access patient data stored in the one
or more central data storages, and configuring the central computer program or the
3

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 4 of 15 PagelD# 1121

applications is representative of the claimed invention. Salwanl at 939 (“The parties agree that
claim 1 is representative”); PL’s Reply Brief in Sapp, of Mot. for Summ. J. and in Opp’n to

central server for: communicating through at least one computer program, which includes
EMR and billing software, embodied in a computer readable medium with at least one
private data storage storing electronic medical record (EMR) information originated,
entered and controlled by at least one or more first healthcare service providers affiliated
with the one or more healthcare user groups, including at least accounts information
confidential for the first healthcare user groups, the confidential information includes at
least accounts information of one or more insurance companies, which is at least used by
the billing software to calculate patient portion of the bill, and clinical data generated by
one or more service providers; receiving from the at least one private data storage the
EMR information for storing, processing and transmission to at least one of the patients,
or one or more second healthcare user groups, wherein the information confidential for
the first healthcare user groups including at least the accounts information of one or more
insurance companies is not received and stored at the central data storage; storing the
received EMR information generated by the one or more service providers including at
least one of health problems, medications, diagnosis, prescriptions, notes written by the
service Providers, diagnostic test results or patient accounts data in the at least one central
data storage; selectively retrieving the stored EMR information, generating one or more
healthcare reports including one or more of health problem list, medication list, diagnoses
report, prescription, diagnostic test result report, patient billing report; and transmitting
one or more healthcare reports to at least the second authorized healthcare user groups or
the patient for reviewing. Salwan I at 939-40.
Claim 1 of the *000 Application states:
An EMR computing system for exchanging patient health information among healthcare
user groups or the healthcare user group and patients over a network, the system
comprising: a central computer program embodied in a computer readable medium or
embodied in a central server and a central database storing patient EMR data for access
by authorized users, the central computer program configured to: communicate through at
least one computer program, which includes EMR and billing software, with at least one
private database for a healthcare user group, the database comprising at least patient
EMR and billing data, and accounting data confidential for the healthcare user group;
receive from the at least one private database EMR data including at least one of health
problems, medications, diagnosis, prescriptions, notes written by a healthcare service
provider, diagnostic test results or patient accounts data for storing in the central
database, wherein the healthcare user group's confidential accounts data including one or
more insurance companies accounts data, is not received; selectively retrieve the stored
EMR data, generate one or more healthcare reports including one or more of health
problem list, medication list, diagnoses report, prescription, diagnostic test result report,
patient billing report; and transmit one or more healthcare reports to an authorized
healthcare user group or the authorized patient for reviewing. A52 (internal formatting
omitted).
4

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 5 of 15 PagelD# 1122

Def.’s Mot. for Summ. J. [Dkt. No. 19] (referring to “my claim 1, the representative claim,”);
Def.’s Brief in Supp. of Mot. for Summ. J. and in Opp'n to Pl.'s Mot. for Summ. J. [Dkt. No. 16]
1 34 (“Claim 1 is representative”).
The ’000 Application went through the standard review process at the USPTO. On
September 7,2016, the patent examiner issued an initial decision rejecting Salwan's claims.
A89-118. The examiner rejected Claims 1 through 20 under 35 U.S.C. § § 101 and 103,
concluding that they were directed to non-statutory subject matter and “would have been obvious
at the time the invention was made to a person having ordinary skill in the art to which said
subject matter pertains.”6 A92, A97-98 (quoting pre-America Invents Act 35 U.S.C. § 103(a)).
Salwan filed a response and requested reconsideration on December 6,2016, A120-49, but the
examiner's second review reached the same conclusions as to the application's patent eligibility
and obviousness. A153-83. Salwan appealed to the PTAB on May 17,2017, A184-85, A206-38,
A242-86, and the PTAB issued a decision on June 11,2018 upholding the examiner's rejections
as to subject matter and obviousness. A321-337. Salwan petitioned for rehearing, A338-53, and
the PTAB declined to modify its opinion. A354-73.
Salwan filed this action on December 14,2018. The parties filed a Joint Motion for a
Briefing Schedule on April 10,2019, agreeing “that this matter may be adjudicated on crossmotions for summary judgment based on the evidence and argument in the administrative record,

6 The examiner also initially concluded that certain of the claims failed to comply with the
written description requirement under 35 U.S.C. § 112 or 112(a). A91. The PTAB did not sustain
this portion of the examiner’s decision. A328.
5

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 6 of 15 PagelD# 1123

without discovery and without the need for Defendant to formally answer the complaint.” [Dkt.
No. 8]. The parties’ cross-motions7 for summary judgment are fully briefed. 8
II.DISCUSSION
A. Standard of Review
A party is entitled to summary judgment if it can show “that there is no genuine dispute
as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). A genuine dispute of material fact exists “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson v. Liberty Lobby. Inc., 477 U.S. 242,
248 (1986). The Court must view the record in the light most favorable to the nonmoving party
and must draw all inferences in favor of that party; however, “[t]he mere existence of a scintilla
of evidence in support of the [nonmovant’sj position will be insufficient; there must be evidence
on which the jury could reasonably find for the [nonmovant].” Id. at 252. Accordingly, to survive
a motion for summary judgment, “[t]he disputed facts must be material to an issue necessary for
the proper resolution of the case, and the quality and quantity of the evidence offered to create a
question of fact must be adequate to support a jury verdict.” Thompson Everett. Inc, v. Nat’l
Cable Advert.. L.P. 57 F.3d 1317,1323 (4th Cir. 1995); Poole v. Pass, 351 F. Supp. 2d 473,478
(E.D. Va. 2005).
The Court must also apply the standard of review applicable to actions brought under 35
U.S.C. § 145. When the PTAB denies a patent application, the applicant may appeal directly to
7 Defendant asks the Court to disregard Salwan’s memoranda because they are not in compliance
with Local Rules 7(F)(3) and 56(B) and include inadmissible hearsay. [Dkt. No. 16] at 13-14.
Given that the filings of pro se plaintiffs are to be construed liberally, there is no need to take this
action.
8 On August 12,2019, after the cross-motions for summary judgment were fully briefed, Salwan
filed a document styled as a “Motion to Dismiss Defendant’s Reply Memorandum and Enter
Arguments of this Motion.” [Dkt. No. 23]. Although Salwan did not seek leave of court to file an
additional brief, it has been considered and will not be struck from the record.
6

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 7 of 15 Page!D# 1124

the Federal Circuit, 35 U.S.C. § 141, or, alternatively, may file a civil action under 35 U.S.C. §
145 in this district.9 Section 145 permits applicants to introduce evidence that was not presented
to the USPTO. See Kanpos v. Hvatt. 566 U.S. 431,435 (2012). When the parties elect to do so,
the action is treated as a “hybrid of an appeal and a trial de novo.” Winner Int’l Royalty Corn, v.
Wane. 202 F.3d 1340,1345 (Fed. Cir. 2000). But where, as here, the parties agree to proceed on
the administrative record alone, Joint Mot. for Briefing Schedule [Dkt. No. 8], the Court reviews
the PTAB’s decision under the deferential standard supplied by the Administrative Procedure
Act (“APA”). Johnson v. Rea, No. l:12-cv-440,2013 WL 1499052, at *2,3 (E.D. Va. April 9,
2013). Under this standard, the Court may only set aside a PTAB decision that is unsupported by
substantial evidence. Id. (citing 5 U.S.C. § 706(2)(a) and Star Fruits S.N.C. v. United States. 393
F.3d 1277, 1281 (Fed. Cir. 2005)); Hvatt v. Kappos. 625 F.3d 1320,1336 (Fed. Cir. 2010), affd
and remanded. 566 U.S. 431 (2012). “if there is substantial evidence to support the [PTAB’s]
determination, then Defendant is entitled to summary judgment.” Johnson. 2013 WL 1499052, at
*2.

When a patent application is rejected, the USPTO bears the initial burden of establishing
a prima facie case of unpatentability, which “need not be a full exposition on every conceivable
deficiency of a claim... Rather, its purpose is simply to provide sufficient notice to the
applicant to facilitate his effective submission of information.” Hvatt v. Dudas. 492 F.3d 1365,
1370 (Fed. Cir. 2007). The burden then shifts to the applicant to produce evidence or argument
to rebut that prima facie case. Id. Finally, patentability is “determined on the entirety of the

9 The United States District Court for the District of Columbia originally had exclusive
jurisdiction over actions brought under 35 U.S.C. § 145; however, the Leahy-Smith America
Invents Act transferred that jurisdiction to the United States District Court for the Eastern
District of Virginia, effective September 16,2011. See Pub. L. No. 112-29 § 9,125 Stat. 284,
316.
7

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 8 of 15 PagelD# 1125

record, by a preponderance of evidence and weight of argument.” In re Glaus. 283 F.3d 1335,
1338 (Fed. Cir. 2002).
B. Analysis
i.

The Federal Circuit’s application of the Alice test in Salwan I

The Federal Circuit has already addressed the core issue in this case, concluding that the
subject matter in the ’ 101 Application, which is extremely similar to the subject matter in the
’000 Application, was not patentable. Salwan I at 939-41. To be patentable, a claimed invention
must cover patent-eligible subject matter under 35 U.S.C. § 101, which provides:
Whoever invents or discovers any new and useful process, machine, manufacture, or
composition of matter, or any new and useful improvement thereof, may obtain a patent
therefor, subject to the conditions and requirements of this title. Id.
To determine whether an invention covers patent-eligible subject matter, the examiner must
apply the two-step test discussed in Alice Corp. v. CLS Bank IntT. 573 U.S. 208 (2014). Under
the first step, the examiner determines whether the claims cover “[ljaws of nature, natural
phenomena, and abstract ideas.” Id. at 217. The Supreme Court has long held that such concepts
are not patentable, because they represent the “basic tools of scientific and technological work.”
Assoc’n for Molecular Pathology v. Myriad Genetics. Inc.. 569 U.S. 576,589 (2013) (internal
citations omitted). Granting a patent for such an idea, the Supreme Court has held, ‘“might tend
to impede innovation more than it would tend to promote it,’ thereby thwarting the primary
object of the patent laws.” Alice. 573 U.S. at 216 (internal citations omitted); see U.S. Const.,
Art. I, § 8, cl. 8 (Congress “shall have Power... To promote the Progress of Science and useful
Arts”).

The Supreme Court has nonetheless recognized that “[a]t some level, ‘all inventions...
embody, use, reflect, rest upon, or apply laws of nature, natural phenomena, or abstract ideas.’”
Alice. 573 U.S. at 217. Accordingly, “an invention is not rendered ineligible for patent simply
8

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 9 of 15 PagelD# 1126

because it involves an abstract concept.'* Id. Instead, examiners must proceed to a second step,
and “examine the elements of the claim to determine whether it contains an ‘inventive concept’
sufficient to ‘transform’ the claimed abstract idea into a patent-eligible application.” Alice. 573
U.S. at 221 (quoting Mavo Collaborative Servs. v. Prometheus Labs. 566 U.S. 66,72-73 (2012)).
If a “patent’s recitation of a computer amounts to a mere instruction to ‘implement]’ an abstract
idea ‘on... a computer’... that addition cannot impart patent eligibility.” Alice. 573 U.S. at
223 (quoting Mavo. 566 U.S. at 84). And if the elements of a claim involve “well-understood,
routine, [and] conventional activity previously engaged in by researchers in the field,” “they do
not constitute an ‘inventive concept.’” Exereen Coro, v. Kaz USA. Inc.. 725 F. App’x 959,963
(Fed. Cir. 2018) (quoting Mavo. 566 U.S. at 73).
The Federal Circuit in Salwan I applied the Alice two-step test to the ’ 101 Application
and concluded that all pending claims were “directed to patent-ineligible subject matter.” Salwan
1 at 940. Under Alice step one, it held “that the claims are directed to the abstract idea of billing
insurance companies and organizing patient health information,” and concluded that “[t]his
describes little more than the automation of a ‘method of organizing human activity’ with respect
to medical information.” Id (quoting Alice. 573 U.S. at 220). Responding to Salwan’s argument
that “the claims are not directed to an abstract idea because the calculation of a patient’s bill and
the transfer of patient EMR are not theoretical concepts,” the Federal Circuit concluded that
these concepts are “fundamental economic and conventional business practices,” which are
“often held to be abstract.” Id.
Under Alice step two, the Federal Circuit found that the “recited method steps ‘fail[ed] to
transform the nature of the claim as they are directed to generic computer structures for storing
and transferring information,”’ and “merely implement long-known practices related to

9

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 10 of 15 PagelD# 1127

insurance billing and organizing patient health information on a generic computer.” Id. Salwan
argued before the Federal Circuit that his claims were inventive because they enabled the
healthcare industry to avoid exchanging patient health information “using fax machines, or
sending paper documents by postal mail, which was inefficient, costly, and time consuming.” Id.
at 941. The Federal Circuit found that this argument simply underscored the extent to which the
claims were “directed to well-known business practices,” and determined that Salwan’s inclusion
of elements like a generic “network,” “computer program,” and “central server” was “not enough
to transform the idea into a patent-eligible invention.” Id. It further found that Salwan’s
“reference to features recited by the dependent claims—such as video conferencing, patient
appointment scheduling, patient registration forms, health-related advertisements, and allowing
physicians to create handwritten EMR” did not alter its conclusion. Id.
The conclusions in Salwan I with respect to the * 101 Application apply with equal force
here. The Federal Circuit held that Representative Claim 1 of the ’101 Application “recites
storing, communicating, transferring, and reporting patient health information in a network.”
Salwan I at 941. The ’000 Application does the same. Like the claims of the ’101 Application,
the claims of the ’000 Application are generally directed to the abstract idea of “billing” and
“organizing patient health information.” Id. The claims in the *000 application represent
“fundamental economic and conventional business practices,” which are often held to be
abstract. See, e.e.. Alice. 573 U.S. at 219 (finding “a method of exchanging financial obligations
between two parties using a third-party intermediary to mitigate settlement risk” abstract);
Content Extraction & Transmission LLC v. Wells Fargo Bank. Nat. Ass’n. 776F.3d 1343, 1347
(Fed. Cir. 2014) (observing that “claims directed to the mere formation and manipulation of
economic relations” have been held to involve abstract ideas).

10

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 11 of 15 PagelD# 1128

Like the ’ 101 Application, the ’000 Application lacks an inventive concept that would
render it patent-eligible. As in Salwan I, the inclusion of terms like a generic “network,”
“computer program,” and “central server,” are insufficient to transform an abstract idea into a
patent-eligible invention. Salwan I at 941. The Federal Circuit concluded that the additional
features recited by the dependent claims of the *101 Application did not make the application
patent-eligible. Id. The ’000 Application includes similar additional features.10 As the Federal
Circuit did in Salwan I. this Court concludes, upon considering the *000 Application’s claim
elements individually and in combination, that they “merely implement long-known practices.”
Id at 940.
Salwan argues that the differences between the ’000 Application and the ’101
Application mean that Salwan I is irrelevant here.11 But the articulated differences are
insufficient to counsel a different outcome from Salwan I. Plaintiff observes, correctly, that the
Federal Circuit in Salwan I discussed the following limitation included in Claim 1 of the ’101
Application: “billing software to calculate a patient’s bill.” Salwan I at 941. Salwan argues that
because the ’000 Application does not include that specific limitation, it should be treated
differently. Pl.’s Reply Brief [Dkt. No. 19] at 7. But the ’000 Application also references “billing

10 The Salwan 1 opinion lists the following features, each of which are also included in some
form in the ’000 Application: video conferencing [recited in Claims 2 and 16 of the *000
application], patient appointment scheduling [recited in Claims 4 and 5 of the ’000 Application],
patient registration forms [recited in Claim 9 ofthe *000 Application], health-related
advertisements [recited in Claims 7,8, and 15 of the ’000 Application], and allowing physicians
to create handwritten EMR [recited in Claims 13 and 14 of die ’000 Application], Both
applications also recite other features, which do not change the Court’s conclusions.
11 Salwan suggests that because the Federal Circuit opinion in Salwan I is not part of the
administrative record, it should not be considered here. Pl.’s Reply Brief [Dkt. No. 19] at 6. He is
incorrect. Although the parties agreed that the factual record in this case would be limited to the
administrative record underlying the ’000 Application, that agreement does not bar consideration
of legal authority outside the administrative record.
11

j

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 12 of 15 PagelD# 1129

software,” A52, and the differences between that limitation and the one at issue in the *101
Application are not significant enough for the Court to conclude that the Federal Circuit’s
conclusions do not apply here. Moreover, the Federal Circuit’s opinion did not rely on the ’101
Application’s billing software alone; it also concluded that the “transfer of patient EMR” is
abstract. Salwan I at 941. Salwan has offered no evidence to suggest that the ’000 Application is
not similarly directed to the “transfer of patient EMR.”12
Salwan further argues that because Claim 1 of the ’000 Application begins with the new
limitation “An EMR computing system for exchanging patient health information,” rather than
the limitation included in the ’101 claim (“A method for transferring patient health
information”), the two claims should be evaluated differently. The Court disagrees. Salwan
suggests that the use of the limitation “[a]n EMR computing system” “clearly implies that [the]
claim has computer activity and not any human activity.” A398. “But [s]tating an abstract idea
while adding the words ‘apply it with a computer’” or an EMR computing system “cannot
transform a patent-ineligible abstract idea into a patent-eligible invention.” Alice. 573 U.S. at
223. See also Ultramercial. Inc, v. Hulu. LLC. 772 F.3d 709,717 (Fed. Cir. 2014) (“adding a
computer to otherwise conventional steps does not make an invention patent-eligible”). Because
the *000 Application represents merely an abstract idea, the addition of this element does not
save it from being patent-ineligible.
it

The decision of the examiner and the PTAB

The record supports the conclusion that the examiner and the PTAB appropriately applied
Alice to come to this same conclusion. Under Alice step one, the examiner reasonably

12 Salwan concedes that the subject matter of the *000 Application is the same as the *101
Application. A11, A381. Although this concession is not dispositive, it does provide support for
the conclusion that the analysis and conclusion in Salwan I should apply to the *000 Application.
12

«4

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 13 of 15 PageiD# 1130

concluded, as the Federal Circuit did in considering the ’101 Application, that Salwan’s claims
were abstract, because “the claimed system simply describes the concept of gathering,
combining, and outputting data by reciting steps of receiving, comparing and outputting data”
which is similar to concepts that “ha[ve] been found by the courts to be an abstract idea.” A157
(emphasis in original). At Alice step two, the examiner found that “the recited generic computing
elements” are
at a high level of generality and perform the basic functions of a computer.... Merely
using generic computer components to perform... basic computer functions... does
not constitute a meaningful limitation that would amount to significantly more than the
judicial exception, even though such operations could be performed faster than without a
computer. A158.
The examiner concluded appropriately, as the Federal Circuit did with respect to the ’101
Application, that none of the dependent claims was sufficiently inventive to change the outcome.
A162. This decision adequately established a prima facie case of unpatentability, such that the
burden shifted to Salwan to produce evidence or argument to rebut that prima facie case. He
failed to do so adequately. Throughout the course of Salwan’s various appeals, the examiner and
later the PTAB responded to his arguments with well-reasoned responses. The Court concludes
that the examiner and the PTAB’s decision-making was supported by substantial evidence.
iii.

Salwan’s other arguments against the examiner and the PTAB’s decision

None of the arguments articulated in Salwan’s briefs persuade the Court that either the
examiner or the PTAB lacked substantial evidence for its rejection of the ’000 Application.13

13 Salwan has made many arguments before this Court, the examiner, and the PTAB over the
course of this process. These arguments include, but are not limited to, the assertions that the
USPTO is corrupt; that because certain EMR systems have been found patentable in the past,
Salwan’s application is necessarily patentable; that the examiner copy-pasted inaccurate
information into the decision on Salwan’s application; that because his P2P system has a real
world application, it cannot be abstract; that his 2005 application has been copied; and that the
examiner and PTAB used high-level, generic language to reject his claims. In this opinion, the
13

*«

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 14 of 15 PagelD# 1131

Some of Salwan’s arguments have already been assessed and rejected by the Federal Circuit in
Salwan I. For example, Salwan argues that the examiner failed to consider the following
allegedly “new and useful, patent eligible inventive-steps” of Claim 1:
not allowing the confidential data to be transferred from the private database (thus
keeping it safe and secure); only transferring patient EMR data (medications, diagnosis,
prescriptions etc.) to the central database; and computation of EMR reports to be
accessed by authorized healthcare user groups and patients. Pl.’s Opening Brief in Supp.
of Mot. for. Summ. J. [Dkt. No. 13] at 6.
Salwan made the exact same argument before the Federal Circuit,14 and the Federal Circuit
concluded that it was without merit. Salwan I at 941. Salwan has presented no persuasive reason
to suggest the result should be different in this context.
Salwan also protests that the examiner should not have referred to other cases in which
courts have identified patent-ineligible concepts. But as the PTAB explained in its decision,
[a]s is typical when an Examiner references a court case, the reference was not cited
because both the court case and the pending claims are indistinguishable. Instead,
Examiners cite such court cases because the analyses and holdings expressed by the court
could be analogized to the present situation, and here, the cases were relied upon as
guidance and authority regarding issues presented in the Appellant’s Application. A330.
The examiner and PTAB’s references to well-established case law in this manner was proper.
Even construing Salwan’s filings liberally, as courts must when reviewing actions filed
by prose litigants, the Court finds that the PTAB’s decision was supported by substantial
evidence, and that Salwan has presented insufficient evidence to overcome defendant’s motion

Court does not individually discuss every one of these arguments, but finds that none of them is
sufficient to change the conclusions about the adequacy of the PTAB’s rejection of the ’000
Application.
14 See Salwan’s Corrected Initial Brief in Salwan I. No. 2015-7758, [Dkt. No. 10] at 15, where
Salwan argues that “both [the examiner and the PTAB] have ignored the new and useful, patent
eligible inventive-steps of claim I, such as not allowing the confidential data to be transferred
from the private database (thus keeping it safe and secure); only transferring and storing patient
EMR data (medications, diagnosis, prescriptions etc.) to the central database, and computation of
EMR reports to be accessed by authorized healthcare user groups and patients.”
14

<4*

Case l:18-cv-01543-LMB-TCB Document 24 Filed 08/30/19 Page 15 of 15 PagelD# 1132

for summary judgment. Because the Court has concluded that the examiner and PTAB’s
determination that the ’000 Application covered patent-ineligible subject matter under 35 U.S.C.
§ 101 was supported by substantial evidence, the Court need not reach Salwan’s arguments as to
the non-obviousness of his claims under 35 U.S.C. § 103.
III.CONCLUSION
For the reasons stated above, defendant’s Motion for Summary Judgment [Dkt. No. 14]
will be granted and plaintiffs Motion for Summary Judgment [Dkt. No. 12] will be denied by an
appropriate Order to be issued with this Memorandum Opinion.
'Ik-

Entered this jjO day of August, 2019.
Alexandria, Virginia

/st /
Leonie M. Brinkema
United States District Judge

15

